OIG Investigative Reports, Oxford, MS., August 02, 2012 - Former Greenville Public Schools Superintendent Pleads Guilty
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
NORTHERN DISTRCIT OF MISSISSIPPI
NEWS
Former Greenville Public Schools Superintendent Pleads Guilty
FOR IMMEDIATE RELEASE
August 02, 2012
OXFORD, Miss. – Felicia C. Adams, United States Attorney for the Northern District of Mississippi, Stacey Pickering, Mississippi State Auditor, and Yessyka Santana, Special Agent in Charge of the U.S. Department of Education Office of Inspector General Southeastern Regional Office announced that:
Harvey Andre Franklin, Sr., 56, of Greenville, Mississippi, pled guilty today before United States District Judge Sharion Aycock, in Aberdeen, Mississippi. Franklin waived indictment and pled guilty to a three count information, charging him with conspiracy to commit an offense against the United States; accepting bribes and kickbacks from a contractor with the Greenville Public School District; and stealing, embezzling, and converting to his own use federal funds.
According to the information, Franklin, as superintendent and on behalf of the Greenville Public Schools (GPS), conspired with Edna Goble, on behalf of Teach Them to Read (TTR), to enter into various contracts whereby GPS would pay TTR approximately $1.4M and in return Goble would make payments to Franklin and various creditors on Franklin's behalf.
"The taxpayers of Mississippi will not tolerate any misuse of taxpayers' funds, but especially when it involves our school children, the future of our state," said State Auditor Stacey Pickering. "Dr. Franklin's actions directly impacted students in the Greenville Public School System, and he must be held accountable for his actions."
Felicia C. Adams, United States Attorney for the Northern District of Mississippi, stated: "Dr. Franklin's actions harmed the integrity of our public school system and impacted some of our most vulnerable citizens, the children of the Greenville Public School District. When officials abuse the public trust, our office will remain steadfast in prosecuting these individuals and ultimately ensuring that justice is served."
Franklin was released on a $5,000 bond pending sentencing, which will take place following the completion of a presentence report. At sentencing, he faces a maximum possible penalty of not more than twenty-five years in prison, not more than $750,000 in fines, and restitution in the amount of loss.
"Today's action shows that this former school superintendent not only knowingly and willfully abused his position of trust for personal gain, but did so at the expense of the children he promised to serve. That is unacceptable," said Yessyka Santana, Special Agent in Charge of the U.S. Department of Education Office of Inspector General Southeastern Regional Office. "Deservedly, Mr. Franklin will now be held accountable for cheating Mississippi's students."
This case was investigated by the Mississippi State Auditor's Office and the United States Department of Education and is being prosecuted by Assistant United States Attorneys John Marshall Alexander and Clayton A. Dabbs.
***
Top
Printable view
Last Modified: 08/15/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov